                                                     NATIONAL SCIENCE FOUNDATION
                                                      OFFICE OF INSPECTOR GENERAL

      .                                                 OFFICE OF INVESTIGATIONS

       o                                       CLOSEOUT MEMORANDUM

11   Case Number: 1-03120074
                                                                                    11           Page \I'I of 1



           OIG selected this award' as part of a random review of awards for conferences, workshops and
           symposia. In response to our request for costs claimed and incurred for the $ grant, the grantee2
           provided information that indicated a total of $1 1,270 in expenses. The grantee did not show which
           expenses were charged to the NSF grant.

           OIG contacted the organization and requested a more detailed account of how the NSF award was
           appropriated. The organization provided a list of the participants supported by the NSF grant, how
           much of the grant monies went to that support, and an appropriate explanation for the use of the
           program income received from the registration fees. Further, there is no indication that the principal
           investigator3made any false statements to NSF about its use of federal funds. Accordingly, this case
           is closed.




           1
               redacted
           *3 redacted
               redacted



 NSF OIG Form 2 (1 1/02)
